                              United States Attorney
                              District of New Jersey
FOR IMMEDIATE RELEASE                                      CONTACT: Rebekah Carmichael
October 19, 2011                                                    Office of Public Affairs
www.justice.gov/usao/nj                                             (973) 645-2888


             BERGEN COUNTY, N.J., MAN SENTENCED TO 12 MONTHS
            FOR BANKRUPTCY FRAUD AND SOCIAL SECURITY FRAUD

        TRENTON, N.J. – A Bergen County, N.J., man who admitted to testifying falsely under
oath to the U.S. Bankruptcy Court in New Jersey and to misusing a Social Security number that
was not assigned to him was sentenced today to 12 months in federal prison, U.S. Attorney Paul
J. Fishman announced.

       Charles Borhan, 54, of Maywood, N.J., previously pleaded guilty before U.S. District
Judge Peter G. Sheridan to an Indictment charging him with perjury in a bankruptcy proceeding
and fraudulently misusing a Social Security number.

       According to documents filed in this case and statements in court:

        On May 17, 1999, Borhan received a bankruptcy discharge of his debts, approximately
$38,000, under his true name and Social Security number. Sometime after his bankruptcy case
was closed, Borhan began using the alias “Abdul Welch” and a Social Security number ending in
2343, which was not assigned to him by the Commissioner of Social Security, to open numerous
credit card accounts and to conduct other financial transactions. In May 2000, Borhan applied
for and obtained a residential mortgage loan for $192,000 to finance the purchase of a house
located in Maywood. On the loan application, Borhan falsely represented that his name was
Abdul Welch and that his Social Security number ended in 2343. Borhan later defaulted on the
mortgage payments and foreclosure proceedings were commenced by the mortgage lender.
Borhan also failed to pay his credit card debts.

        In July 2005, Borhan filed a petition with the U.S. Bankruptcy Court for the District of
New Jersey, under Chapter 7 of the U.S. Bankruptcy Code, using the alias Abdul Welch and the
Social Security number ending in 2343. By filing this petition, Borhan sought to stay the
foreclosure proceedings that had been instituted on the house he had purchased in Maywood, and
he also sought to discharge approximately $83,000 worth of credit card debt he had incurred
using the fraudulent Social Security number.

       In connection with his bankruptcy petition, Borhan appeared at a hearing in August 2005
in which he answered questions under oath about matters related to his petition and his finances.
Borhan falsely testified that the information in his bankruptcy petition was true and accurate,
when he knew he had filed under a false name and Social Security number. At the start of the
hearing, Borhan provided to the bankruptcy trustee who was conducting the hearing a false New
Jersey driver’s license, which displayed Borhan’s photograph with the name Abdul Welch.
Finally, Borhan also falsely represented to the trustee that the fraudulent Social Security number
was his, when, in fact, such number had not been assigned to him.

        In addition to the prison term, Judge Sheridan sentenced Borhan to three years supervised
release.

        U.S. Attorney Fishman credited special agents of the Social Security Administration,
Office of the Inspector General, New York Field Division, under the direction of Special Agent
in Charge Edward J. Ryan, and Region 3 U.S. Trustee Roberta DeAngelis and the Newark office
of the U.S. Trustee, with the investigation that resulted in today’s sentencing.

       The government is represented by Assistant U.S. Attorney Aaron Mendelsohn of the U.S.
Attorney’s Office Economic Crimes Unit in Newark.

        This case was brought in coordination with President Barack Obama’s Financial Fraud
Enforcement Task Force. President Obama established the interagency Financial Fraud
Enforcement Task Force to wage an aggressive, coordinated, and proactive effort to investigate
and prosecute financial crimes. The task force includes representatives from a broad range of
federal agencies, regulatory authorities, inspectors general, and state and local law enforcement
who, working together, bring to bear a powerful array of criminal and civil enforcement
resources. The task force is working to improve efforts across the federal executive branch, and
with state and local partners, to investigate and prosecute significant financial crimes, ensure just
and effective punishment for those who perpetrate financial crimes, combat discrimination in the
lending and financial markets, and recover proceeds for victims of financial crimes.

11-416                                         ###

Defense counsel: Lisa Van Hoeck Esq., Assistant Federal Public Defender, Trenton




                                                 -2-
